                                                                                                    Report No. DoDIG-2012-114
                                                                                                                  July 27, 2012




DEPUTY INSPECTOR GENERAL FOR INTELLIGENCE
    AND SPECIAL PROGRAM ASSESSMENTS




  Assessment of Security Within the Department of
             Defense - Security Policy




    This document will not be released(in whole or in part) outside the Department of Defense without the prior
                     written approval of the Inspector General of the Department of Defense
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/Ir/reports.htm or contact the DoD Office of
Inspector General at (703) 882-4818 or (DSN) 381-4818.

Suggestions for Audits and Evaluations
To suggest ideas for or to request future audits or evaluations, contact the Office of the
Deputy Inspector General for Intelligence and Special Program Assessments at
(703) 882-4860 (DSN 381-4860) or UNCLASSIFIED fax (571) 372-7451. Ideas and
requests can also be mailed to:

                         ODIG-ISPA (ATTN: ISPA Suggestions)
                         Department of Defense Inspector General
                          4800 Mark Center Drive (Suite 10J25)
                               Alexandria, VA 22350-1500




Acronyms and Abbreviations
DSE                            Defense Security Enterprise
DSE ExCom                      Defense Security Enterprise Executive Committee
DTM                            Directive-Type Memorandum
OUSD(I)                        Office of the Under Secretary of Defense for Intelligence
SPēD                           Security Professional Education and Development
USD(I)                         Under Secretary of Defense for Intelligence
Report No. DoDIG-2012-114 (Project No. D2010-DINT01-0066.003)                               July 27, 2012


                Results in Brief: Assessment of Security
                Within the Department of Defense –
                Security Policy

What We Did                                                The Under Secretary of Defense for Intelligence
                                                           is in the process of promulgating an overarching
This is the third in a series of reports designed to       security policy, “Management of the
provide an overall assessment of security                  Department of Defense Security Enterprise,”
policies and procedures within the Department.             that provides guidance for a comprehensive and
In this report, we assessed how effective                  integrated security framework. This action is
security policy is in addressing the security              scheduled to be completed in the fourth quarter
needs of the Department. We addressed                      of 2012. Also, the Under Secretary of Defense
security costs, and training, certification, and           for Intelligence has created the Defense Security
professionalization in previous reports.                   Enterprise Executive Committee, a senior-level
Classification and grading of security jobs will           governance body for the strategic administration
be the final report in this series.                        and policy coordination of the Defense Security
                                                           Enterprise.
What We Found
We found that security policies often overlap,             However, until the overarching security policy
are fragmentary, or inconsistent. In addition,             is promulgated and the Defense Security
the sheer volume of security policies that are not         Enterprise Executive Committee becomes an
coordinated or integrated makes it difficult for           inculcated and inclusive governing process,
those at the field level to ensure consistent and          interoperability issues, redundancies, and other
comprehensive policy implementation. While                 inefficiencies will persist.
compliance with existing security policies
remains a central issue, consumers at the field            What We Recommend
level are often required to interpret outdated             We are not making any recommendations in this
security policy guidance to make it relevant to            report because the overarching security policy
existing organizational requirements.                      and the Defense Security Enterprise Executive
                                                           Committee will ensure an enterprise approach to
In the first report in this series, Report No.             security policy across the Department. Further,
10-INTEL-09, “Assessment of Security Within                our previous recommendation should ensure
the Department of Defense: Tracking and                    that the new Defense Security Enterprise
Measuring Security Costs,” August 6, 2010, we              Executive Committee will be an integral part of
recommended a comprehensive and integrated                 policy development and coordination with the
security framework to facilitate tracking                  requisite authorities to effect changes in security
security costs, more accurately programming                policy implementation and oversight.
future years security budgets, and examine the
return on investment for security expenditures.
The Deputy Under Secretary of Defense for                  Management Comments
Intelligence and Security agreed, stating that an
overarching security policy is the necessary first         Although not required, the Deputy Under
step to provide a platform for functional                  Secretary of Defense for Intelligence and
integration, governance, and strategic resource            Security provided comments in response to this
management.                                                report.




                                                       i
Table of Contents

Introduction                                                       1

Objectives                                                         1

Scope and Methodology                                              1

Background                                                         2

Finding. DoD Needs an Overarching Security Policy to Advance an    3
         Integrated Enterprise Approach to Security

Appendix: Prior Coverage                                          10

Management Comments                                               11
Introduction
Security spans the entire Department and is necessary for the Department to protect its
resources. Department of Defense security disciplines have as one fundamental purpose
the protection of DoD critical assets and must be applied in a fully balanced and
coordinated way. Actions taken in one area, for example, physical security, have a direct
bearing upon actions taken in other areas such as information security. When security
policy functions are fragmented, the chances of inconsistent and ineffective protection
levels are increased. Employees in security positions, whether it is security
administrators, security chiefs, or security clerks, are critical to the national defense and
deserve security policy that is clear, concise, and consistently applied to all echelons of
security. In the absence of security policy that is streamlined, updated and harmonized,
organizations will waste resources trying to comply with guidance that is potentially
redundant, outdated and confusing.

Objectives
This is the third in a series of reports on security within the Department of Defense and is
responsive to a request made by the Under Secretary of Defense for Intelligence (USD(I))
for the Office of Inspector General, Department of Defense, to assess the effectiveness of
security in the Department. Specifically, we are conducting assessments of the following
issue areas:

       •   how the Department programs and tracks its security costs and measures the
           return on investment for security expenditures;
       •   how security professionals are trained and certified/professionalized;
       •   how effective security policy is in addressing the security needs of the
           Department; and
       •   how security professionals’ jobs are classified and graded.

This report addresses the effectiveness of security policy in addressing the security needs
of the Department.

Scope and Methodology
This assessment was conducted in accordance with Quality Standards for Inspections
issued by the Council of the Inspectors General on Integrity and Efficiency. Those
standards require that we plan and perform the assessment to obtain sufficient appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
assessment objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our assessment objectives.

Because of the size and complexity of addressing security within the Department of
Defense, we are performing this assessment in phases: phase one, Tracking and
Measuring Security Costs; phase two, Training, Certification, and Professionalization;
phase three, Security Policy; and phase four, Classification and Grading. Subsequent
reporting may also address security issues within a larger context as additional
information is developed. To accomplish the objective, we reviewed relevant policies
and guidance and interviewed officials responsible for security policy development and
implementation.




                                              1
Background
There have been previous assessments of security policies within the DoD. In 1985,
“Keeping the Nation’s Secrets: A Report to the Secretary of Defense” was submitted to
the Secretary of Defense by The Commission to Review Department of Defense Security
Policy and Practices, headed by Richard G. Stilwell, General, USA (Retired). The report
emphasized the need to respond to “the threat posed by hostile intelligence services by
establishing a comprehensive set of policies and procedures designed to prevent
unauthorized persons from gaining access to classified information.” The report also
noted, however, that while protecting classified information was “imperative in principle”
security policies were crafted in an environment of budgetary constraints and
“tempered… by operational necessities.” The report further noted that some policies
remained in force despite their proven ineffectiveness and concluded that “in the final
analysis, safeguarding classified information comes down to proper supervision and the
individual's responsibility to apply the rules.”

In 1994, The Joint Security Commission report entitled “Redefining Security,” addressed
security policy and reported that security policy was fragmented. The report also
identified the ad hoc manner in which security policies and practices have evolved noting
that policy is enumerated in several documents prepared at different times, by different
people in response to differing requirements and events – not as part of a comprehensive
coordinated effort. The report further cited the disadvantages of developing policy
through consensus noting that the approach is time consuming, ineffective, and results in
inadequate policy that has been weakened in order to achieve consensus. According to
the report, improvements in security policy could not be achieved without a unifying
structure to provide leadership, focus, and direction.

A majority of the issues identified in the above reports remain true today. To date, DoD
as a whole still needs to address the identified problems with security policies, including
policy development and the approval process. In fact, these issues were also identified in
a 2011 Office of the Under Secretary of Defense for Intelligence requested Federated
Security study that assessed the optimal organizational, management, and resourcing
structure to best accomplish the Department’s security mission. The study noted that “the
existing organizational structure of the DoD security enterprise is fragmented with
functions scattered across a number of organizations within DoD components. This
results in a lack of central coordination and management of DoD security functions
which include policy implementation and resourcing.”




                                            2
Finding: DoD Needs an Overarching Security Policy to
Advance an Integrated Enterprise Approach to Security
Within the DoD, security functions are disjointed. Moreover, in each security functional
area, it is difficult - if not impossible - to manage security policy. While several security
programs do exist within components, coordination is inconsistent at the Office of the
Secretary of Defense level. As a result, DoD security components establish their own
strategies, guidance, and reporting channels. This fragmented structure could result in
ineffective application of protection across the Services and commands. The Department
has taken steps to address the need for an integrated, coordinated, and comprehensive
security framework through such measures as the creation of the Defense Security
Enterprise Executive Committee (DSE ExCom), the Security Professional Education and
Development (SPēD) program, and an overarching security policy that provides guidance
for a comprehensive and integrated security framework - “Management of the
Department of Defense Security Enterprise.” However, DoD needs to promulgate the
overarching policy in order to solidify the DSE ExCom and to strengthening security
policy and enterprise management. This will significantly advance efforts to
comprehensively integrated security guidance and ensure conformance with the
developing enterprise paradigm within the Department.

DoD Enterprise Approach
As we have consistently stated, security is a critical function that spans the entire
Department; and, as such, functional integration, governance, and strategic resource
management can be better leveraged through an enterprise approach to security
management. In responding to the recommendation in the first report in this series, the
Deputy Under Secretary of Defense for Intelligence and Security stated that “Security
policy administration within the Office of the Secretary of Defense is also fragmented.
For example, information systems security comprises a significant portion of the costs
incurred, but policy administration and oversight of this critical function are external to
the Office of the Under Secretary of Defense for Intelligence. As a result, a process for
decision-making and governance would have to be established to achieve the
comprehensive security framework you recommend.”
Current Enterprise efforts include DoD moving forward by creating an overarching
security directive, DoD Directive 5200.LL, “Management of the Defense Security
Enterprise,” (Draft - with an anticipated publish date in fourth quarter FY 2012),
consistent with the authorities assigned in DoD Directive, 5143.01, “Under Secretary of
Defense for Intelligence (USD(I)),” November 23, 2005, establishes policy and assigns
responsibility for the management of the Defense Security Enterprise (DSE). It provides
direction for a comprehensive DSE policy and oversight framework and governance
structure to safeguard personnel, information, operations, resources, technologies, and
facilities against harm, loss, or hostile acts and influences. It deconflicts the DSE from
other DoD security related functions such as force protection and provides for the
alignment, synchronization, support, and integration of those related security functions.
It assigns responsibilities related to the DSE to the Defense Security Executive, and
provides a common lexicon for the DSE.

It also established the DSE ExCom. The objective of the DSE ExCom is to provide
enterprise-wide and converged organizational governance to the development,
implementation, and oversight of security policy and security workforce development.

                                              3
Members comprise senior leadership from key components in the Department who have
corresponding oversight responsibility for security functions. The DSE ExCom
represents a significant transformation in the way the Department is approaching security
matters.

DoD 3305 series of issuances address the training, education, and professional
development needs of the DoD Intelligence Enterprise. The series authorizes DoD
functional managers and training councils to define workforce training standards. The
training and professionalization of intelligence and security personnel is governed by
these issuances. We addressed DoD Instruction 3305.13, “DoD Security Training,”
December 18, 2007, in a previous report on security training, certification, and
professionalization. The instruction resulted in the creation of the Defense Security
Training Council. The training council provides the means through which security
training issues, policy changes, establishment of standards, allocation of responsibilities,
and other related topics can be addressed and recommendations made to the USD(I). The
council incorporates a coordinated approach to security training and professionalization.

A major contributing factor to the training, education, and professional development
efforts is the SPēD Program, which is a DoD-wide security training and certification
program that will identify security proficiencies and accountabilities. When fully
implemented by the fourth quarter of 2014, SPēD will provide the DoD security
workforce a path towards professionalization and will establish standardized
competencies across DoD components. Detailed information about the SPēD program
can be found in our previous assessment 1 on security training, certification, and
professionalization.

Current Security Policy
DoD components must be compliant with a number of security policies which can be
redundant and outdated. Central oversight of security policies is only in its formative
stages with the creation of the Defense Security Oversight and Assessment Program. 2
There is also no agreed upon lexicon for security, with the one exception being
Information Assurance. The fragmentation and lack of top-down coordination of the
security enterprise undermines the DoD mission and national security. The current
organizational structure makes it difficult for any high-level decision-maker to know
whether security functions are being adequately fulfilled. In effect, security policy is
stove-piped, making it difficult to identify a senior level focal point for security
programs.

DoD security policy is fragmented, redundant, and inconsistent; in part, because of the
lack of an integrated security framework. The Department has a significant number of
security policy publications, and specializations which cause redundancies,
inconsistencies, and gaps in the creation and implementation of security measures.
Currently, the Department has 23 security functional areas – each with its own set of


1
  “Assessment of Security Within the Department of Defense – Training, Certification, and
Professionalization,” Report No. DoDIG-2012-001, October 6, 2011. This is the second report in the series
of assessments.
2
  As part of its strategic oversight of security role in the DoD, on September 30, 2010, the OUSD(I)
established the Defense Security Oversight and Assessment Program, with the primary purpose of gaining
awareness of the health of the Defense Security Enterprise and making policy, planning, and advocate
resourcing decisions necessary for continued improvement.

                                                   4
related security issuances. It is difficult to provide oversight and training associated in
most security disciplines when there are no clearly defined responsibilities and lines of
authority for information security, physical security, and information assurance when
dealing with information protection.

Critical infrastructure protection, nuclear physical security, cybersecurity, supply chain
risk management, insider threat, force protection, foreign disclosure, technology transfer,
information assurance and other DoD functional areas should influence and be influenced
by security policy and oversight – the core responsibility of the Principal Staff Assistant
for Security. However, no formal mechanism exists to exercise executive-level
leadership that incorporates and integrates the views of all of these functions into a
cohesive departmental security program with comprehensive, non-duplicative, and
mutually understood roles and responsibilities. In the absence of an overarching security
policy that provides a means for organizational coordination, resulting policy can be
stove piped, overlapping, and contradictory.

The Assistant Secretary of Defense for Homeland Defense and Americas’ Security
Affairs oversees Mission Assurance, Anti-Terrorism, Insider Threat, Cyber Security,
Critical Infrastructure Protection, Force Protection, and Supply Chain Risk Management.
The Under Secretary of Defense for Acquisition, Technology, and Logistics oversees
nuclear physical security; the Under Secretary of Defense for Policy oversees foreign
disclosure; and the DoD Chief Information Officer oversees information assurance.

These DoD functional areas should influence and be influenced by security policy and
oversight – the core responsibility of the Principal Staff Assistant for Security.
DoD Directive 5143.01, “Under Secretary of Defense for Intelligence (USD(I)),”
November 23, 2005, paragraph 4 states that “The USD(I) is the [Principal Staff Assistant]
and advisor to the Secretary and Deputy Secretary of Defense regarding…security…”
The USD(I) has the authority to develop and integrate risk-managed security and
protection policies and programs; and develop, coordinate, and oversee the
implementation of DoD security policies and programs.

The Deputy Under Secretary of Defense for Intelligence and Security, through the
OUSD(I) Director of Security, has personnel who are responsible for maintaining the 43
policies promulgated by the office, covering the functional areas of information security,
industrial security, operations security, research and technology protection, personnel
security, physical security, and special access programs. However, no overarching policy
exists that blends these policies into an integrated security framework for the Department.

Overlapping policies can not only be confusing, but there is a need to reduce potential
duplication across federal programs, save tax dollars, and more efficiently use available
resources. Accordingly, DoD security lines of authority and security policy should be
revised to avoid redundancy and inconsistencies. A review of Information Security
policy reveals overlaps between the following issuances:


   •   DoD Directive 5210.83, “Department of Defense Unclassified Controlled Nuclear
       Information,” overlaps with personnel security matters by addressing persons
       authorized to access DoD unclassified controlled nuclear information and
       detailing how to obtain authorization to access the information. The issuance
       establishes access guidance for federal employees, contractors, congressional
       officials and other designated authorities. The issuance also identifies the
       appropriate process for marking unclassified controlled nuclear information and

                                              5
       thus overlaps with recent guidance for the appropriate handling and marking of
       controlled unclassified information as set forth in DoD Manual 5200.01, Volume
       4, “DoD Information Security Program: Controlled Unclassified Information
       (CUI),” February 24, 2012.

   •   DoD Instruction 5200.33, “Defense Courier Operations (DCO),” overlaps with
       physical security as it identifies standards for material storage for items in courier
       possession, escort requirements and material transit specifications. The issuance
       also overlaps with personnel security by identifying the security clearance and
       suitability standards for courier personnel.

   •   DoD Instruction 5200.39, “Critical Program Information Protection Within the
       Department of Defense,” overlaps with industrial security as it addresses the
       conduct of security inspections at cleared Defense contractor facilities as well as
       coordination with defense contractors. In addition, the instruction overlaps with
       matters related to operations security, personnel security, and physical security.

Additional review of physical security policy revealed the following policy overlaps.

   •   DoD Instruction 5100.76 “Safeguarding Conventional Arms, Ammunition, and
       Explosives (AA&E)” overlaps with physical security as it includes guidance for
       the proper safeguarding of Conventional AA&E against theft, loss, sabotage,
       damage, or unauthorized use. The instruction also addresses personnel security
       and foreign visits and assignments and overlaps with research and technology
       protection.

   •   DoD Instruction 5210.65, “Minimum Security Standards for Safeguarding
       Chemical Agents,” overlaps with industrial security with the provision of security
       standards for facilities that produce, store, use, train with, transfer, and/or destroy
       chemical agents. The instruction overlaps with personnel security by identifying
       standards for Individuals certified by Certifying Officials with a legitimate need
       to handle and/or use chemical agents. In addition, the requirement for a secure
       inventory database system and information protection measures to verify the
       appropriate security of information on chemical agents impinge on areas related
       to information security.

   •   DoD Regulation 5200.08-R, “Physical Security Program” prescribes minimum
       standards for the security of personnel, installations, military operations, and
       certain additional assets. As such, it overlaps with personnel security with respect
       to checks, issuance of clearances and identification cards; information security
       with respect to access to government systems and the coordination of physical
       security for automated information systems.

The above examples are not comprehensive. There are additional security policies with
overlapping areas of control or guidance. These policies illustrate the integrated nature of
security throughout the department and reflect the need for an enterprise approach in
creating security policy.

Fragmentary security policies have been identified in previous DoD-sponsored studies.
The earlier referenced Federated Security Study that assessed the optimal organizational,
management, and resourcing structure to best accomplish the Department’s security
mission identified the DoD Manual 5220.22-M, “National Industrial Security Program


                                              6
Operating Manual,” as an issuance that does not reference requirements for Special
Nuclear Material and does not cover operational data integrity and system availability,
nor does it address controlled unclassified information. However, there is a draft 5220.22
manual that is undergoing formal coordination. These issues should be addressed in the
revised version of the manual. An additional issuance, DoD Regulation 5200.2-R offers
guidance for the safeguarding of personnel security investigative records but provides no
direction regarding training of personnel tasked to safeguard records or the potential
consequences for the deliberate or unintentional compromise of personnel security
information.

Inconsistent security policies make it difficult for end-users to be in compliance with
existing guidance. The following policies are potential examples where guidance needs
to be congruent or harmonized.

   •   DTM 09-012, requires coordination with personnel security due to vetting and
       adjudication procedures of personnel receiving U.S. Government identification
       credentials. The two functions must work together to eliminate conflicting
       implementation guidance. It also has implications on industrial security for
       contractors and information security for network requirements.

   •   DTM 04-010, “Interim Information Security Guidance,” addresses a variety of
       issues, but does not assign specific responsibilities to specific organizations.

   •   DoD 5200.08-R, sets the stage for establishing common baseline physical security
       standards for all DoD Components, and then delegates implementation of that
       posture to each Component and its respective Component Head.

DoD Directive 5200.2, “Personnel Security Program,” was generally adequate with the
exception of reciprocal acceptance of prior investigations and personnel security
determinations. This is not uniform across the federal government. DoD has exceptions
to certain types of investigations completed by other than DoD agencies. In the special
access program area, DoD component Special Access Program Coordination Offices
have documented agreements in place to accept no-waiver special access program
eligibility determinations. There is still a challenge between the intelligence community
and DoD in creating consistent standards for eligibility and reciprocity between sensitive
compartmented information and DoD special access programs.

The personnel security requirements for individuals that require access to sensitive
compartmented information are contained within Director of Central Intelligence
Directive 6/4 and DoD 5105.21-M-1, “Department of Defense Sensitive Compartmented
Information Administrative Security Manual,” August 1998; while the Joint Air Force,
Army, Navy 6/4 manual provides the same requirements for the special access program
community.

Department of Defense Instruction 5205.13, “Defense Industry Base (DIB) Cyber
Security/Information Assurance (CS/IA) Activities, January 29, 2010, does not address
how DoD and the Defense Industrial Base will conjointly address certification and
accreditation efforts of Defense Industrial Base systems, what standard to use, (e.g. the
DoD Information Assurance Certification and Accreditation Process), and how this will
be overseen.




                                            7
Survey Results Regarding Security Policy
The above issues were also expressed in surveys that our office conducted in connection
with this assessment. We solicited input from Security Managers via surveys in an
attempt to ascertain the state of security policy across organizations, Services, and
commands. Respondents were provided with a password to access the survey online.
The survey was sent to 48 Security Managers throughout the DoD and addressed funding,
certification and training, classification and grading, and policy issues related to security.

As the security managers of their respective organizations, respondents were able to
provide knowledgeable responses and a perspective of security operations in the field
where policy is implemented, which in turn informed this report. We received a response
rate of 35%. Survey respondents noted that security policy is effective; however, one
third of the Security Managers had inconsistent, overlapping, or difficult to implement
policy.

A majority of survey respondents stated that they would like to see specific guidance
directing the field and the central adjudication facilities to accept other organizations'
adjudicative decisions, the reciprocal acceptance of prior investigations and personnel
security determinations when processing new hires from the Services or when contractor
personnel change to another contract or contracting company. With one overarching
policy, personnel security delays in these cases could be eliminated and have the potential
to save money for the Department.

More than one quarter of the survey respondents had serious concerns about the
information security program, DoD Instruction 5200.01. Specifically, the concerns were
absence of a consistent standard for marking classified information across the
Department and whether the Information Security Oversight Office or Controlled Access
Program Coordination Office guidance had primacy within the DoD. With one
overarching policy, guidelines could be established to create one standard, regardless of
agency, for marking, handling, transporting, or transmitting classified information.

An additional concern listed by survey respondents was the redundant policy within the
physical security program, DoD Regulation 5200.08-R and the DoD antiterrorism/force
protection program, DoD Directive 2000.12. For example, one survey respondent stated
“I am constantly amazed at why we (the DoD) have separate physical security and
antiterrorism programs. They are two sides of the same coin and are often duplicative
and redundant.”

Best Practice
The Air Force is making great strides in streamlining their security policies by
undertaking efforts to consolidate security policy issuances. These efforts should be
encouraged. The organization has unity of command over security functions by having a
single senior executive reporting directly to the Secretary of the Air Force. The
Administrative Assistant to the Secretary of the Air Force is the Senior Security Official
and has established the Air Force Security Policy and Oversight Board comprising
general officer and executive-level membership from across Air Force security and
including key functions such as information assurance, legislative affairs, and others. As
its name implies, the board decides on key initiatives and policy to be applied Air Force
wide.




                                              8
Air Force Policy Directive 16-14, “Information Protection,” September 28, 2010,
establishes policies and responsibilities for the oversight, management, and execution of
protecting Air Force information across the Air Force Enterprise regardless of where the
information exists. The Directive consolidates DoD Instruction 5200.01, “DoD
Information Security Program and Protection of Sensitive Compartmented Information,”
October 9, 2008, and DoD Directive 8500.01E, “Information Assurance,” April 23, 2007,
and selected information protection policy from Air Force Policy Directive 10-7,
“Information Operations;” Air Force Policy Directive 33-3, “Information Management;”
Air Force Policy Directive 35-1, “Public Affairs Management;” Air Force Policy
Directive 16-6, “Arms Control Agreement;” Air Force Policy Directive 61-2,
“Management of Scientific and Technical Information;” and Air Force Policy Directive
63-1/Air Force Policy Directive 20-1, “Acquisition and Sustainment Life Cycle
Management.”

Conclusion
In the first report in this series, Report No. 10-INTEL-09, “Assessment of Security
Within the Department of Defense: Tracking and Measuring Security Costs,” August 6,
2010, we recommended a comprehensive and integrated security framework to facilitate
tracking security costs, more accurately programming future years security budgets, and
examine the return on investment for security expenditures.

We are not making any recommendations in this report because we believe that the
previous recommendation, if implemented in a timely manner, will ensure an enterprise
approach to security policy management across the Department. Further, our
recommendations will ensure that the new DSE ExCom, with its inaugural meeting in
January 2012, will be an integral part of policy development and coordination with the
requisite authorities to effect changes in security policy implementation and oversight.

The DSE ExCom is furthering an enterprise-wide and converged organization perspective to
security policy development, oversight, and implementation. The DSE ExCom will enable a
unified Defense perspective on security issues across the DoD and provides a means to more
effectively interface with external agencies and organizations. This integrated approach
should be reflected in the existing security policy construct. At present, however,
security policy is not in accordance with the DoD enterprise approach. Interviews,
directed studies, and surveys have identified DoD security policy that is fragmented,
redundant, and inconsistent.

An overarching security policy could lay the groundwork for an integrated framework for
security policy implementation, provide an archetype for policy harmonization, and
ensure greater security policy coordination and integration. DoD needs to promulgate the
overarching policy in order to solidify the DSE ExCom and to strengthen security policy
and enterprise management. This will significantly advance efforts to comprehensively
integrate security guidance and ensure conformance with the developing enterprise
paradigm within the Department.




                                            9
APPENDIX: Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoDIG) have issued four reports that have
addressed security specific to the DoD and national security enterprise. Unrestricted
GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD
IG reports can be accessed at http://www.dodigmil/Ir/reports.


GAO
GAO Report No. GAO-09-0904SP, “Key Issues for Congressional Oversight of National
Security Strategies, Organizations, Workforce, and Information Sharing,” September
2009


DoD IG
DoD IG Report No. 10-Intel-09, “Assessment of Security Within the Department of
Defense – Tracking and Measuring Security Costs,” August 6, 2010

DoD IG Report No. DoDIG-2012-001, “Assessment of Security Within the Department
of Defense – Training, Certification, and Professionalization,” October 6, 2011




                                         10
Office of the Under Secretary of Defense for Intelligence
  Comments




                       Click to add JPEG file




                                     11
